   SAN FRANCISCO UNIFIED SCHOOL DISTRICT
             555 FRANKLIN STREET
       SAN FRANCISCO, CALIFORNIA 94102

NATIONAL SCIENCE FOUNDATION AWARD NUMBERS
        ESR-9908165 AND ESI-9813936

             FINANCIAL AUDIT OF
          FINANCIAL SCHEDULES AND
INDEPENDENT AUDITORS’ REPORTS FOR THE PERIOD
        JUNE 1, 1999, TO MARCH 31, 2004




                                   This audit was performed by:

                                       Cotton & Company LLP
                                     635 Slaters Lane 4th Floor
                                     Alexandria, Virginia 22314
             XXXXXXXXXXXX
            XXXXXXXXXXXXXX




XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXX
                                                         Table of Contents

                                                                                                                                                Page

Executive Summary:
  Background .....................................................................................................................................   1
  Audit Objectives, Scope, and Methodology ....................................................................................                      2
  Summary of Audit Results ...............................................................................................................           3
  Exit Conference................................................................................................................................    4

Findings and Recommendations:
  Independent Auditors’ Report on Financial Schedules ...................................................................                            5
  Independent Auditors’ Report on Compliance with Laws and Regulations and
       Internal Control over Financial Reporting ..............................................................................                      7

Financial Schedules:
  Schedule A-1. Schedule of Award Costs ESR-9908165..................................................................                                15
  Schedule B-1. Schedule of Questioned Costs ESR-9908165...........................................................                                  16
  Schedule A-2. Schedule of Award Costs ESI-9813936 ...................................................................                              18
  Schedule B-2. Schedule of Questioned Costs ESI-9813936............................................................                                 19
  Schedule C-1. Schedule of Cost Sharing ESR-9908165..................................................................                               21
  Schedule C-2. Schedule of Cost Sharing ESI-9813936 ...................................................................                             22
  Schedule D. Summary Schedule of Awards Audited and Audit Results…………………………                                                                         23
  Notes to the Financial Schedules .....................................................................................................             25

Appendix A: Awardee’s Comments to Report
EXECUTIVE SUMMARY
BACKGROUND

We audited funds awarded by the National Science Foundation (NSF) to the San Francisco
Unified School District (SFUSD) under Cooperative Agreement No. ESR-9908165 and a Grant
No. ESI-9813936 for the periods September 1, 1999, to March 31, 2004, and June 1, 1999, to
March 31, 2004, respectively. SFUSD, as a federal awardee, is required to follow cost principles
specified in Office of Management and Budget (OMB) Circular A-87, Cost Principles for State,
Local, and Indian Tribal Governments, and federal administrative requirements contained in
OMB Circular A-102, Grants and Cooperative Agreements with State and Local Governments.
In addition, as a NSF awardee, SFUSD is required to follow provisions for financial management
systems and cost sharing in OMB Circular A-110, Uniform Administrative Requirements for
Grants and Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
Organizations.

SFUSD is the fifth largest school district in California, with more than 160 educational facilities
and more than 7,000 employees serving over 60,000 students. In Fiscal Year (FY) 2003, it
received more than $76 million in federal funds.

Descriptions of the NSF awards we audited are as follows:

No. ESR-9908165. NSF awarded Cooperative Agreement No. ESR-9908165 to SFUSD for the
period September 1, 1999, to August 31, 2004, for $10,245,022. Amendment No. 3, dated
February 24, 2004, reduced the original cost-share obligation from $4,400,820 to $2,292,018.
NSF reduced the cost share requirements because of budgetary constraints incurred by the
grantee.

The agreement was awarded under NSF Program Announcement 99-52, Urban Systemic
Program in Science, Mathematics, and Technology Education (USP). USP is a K-12-based
program that promotes systemic reform of science and mathematics education for all students.
USP also includes programmatic components that seek to foster partnerships between urban
school districts and 2- and 4-year colleges and universities and embed research on educational
practice and learning. The purpose of the SFUSD USP award is to stimulate dramatic
improvement in (a) teaching and learning, enabling significantly more students to pursue careers
in science, mathematics, and technology, (b) establishing and expanding a unified system of
coalitions that link students, teachers, families, and community members in SFUSD with the
city’s vast and diverse resources, and (c) establishing an infrastructure that aligns SFUSD’s
efforts to sustain the highest quality of student learning.

The overall purpose of USP is to improve the scientific and mathematical literacy and
achievement of all students; provide mathematics and scientific fundamentals that will permit all
students to participate fully in a technological society; empower a significantly greater number of
students to pursue careers in mathematics, science, engineering, and technology; and to promote
extensive and sustainable alterations in the methods by which science and mathematics are
taught and assessed. The purpose of the SFUSD USP award is to stimulate dramatic
improvement in inquiry, quality investigations, and reforms in science.

                                                1
 Cumulative disbursements for the USP award reported to NSF through March 31, 2004 (the end
 of the audit period), were $7,943,014. Cost-sharing expenses claimed were $2,141,081.

 No. ESI-9813936. NSF awarded Grant ESI-9813936 to SFUSD on June 1, 1999, in the amount
 of $1,619,775. This award expired following a no-cost extension through May 31, 2004. As a
 condition of the award, SFUSD agreed to provide total cost sharing in the amount of $873,911.

 The INQUIRES award [Inquiry, Quality Investigations, and Reform in Science] is part of NSF’s
 “local systemic change” projects, which are characterized by: (a) a shift in focus from the
 professional development of the individual teacher to the professional development of all
 teachers within the whole school organization; (b) a vision of what the K-12
 science/mathematics/technology program should be; and, (c) a plan for implementing exemplary,
 standards-based instructional materials. The SFUSD INQUIRES award targets middle school
 teachers who teach science courses either as part or all of their teaching duties.

 Cumulative disbursements for this award reported to NSF through March 31, 2004 (the end of
 the audit period), were $1,283,752 in NSF-funded costs and $538,479 in cost sharing.

 AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

 The objectives of our audit engagement were to:

1.      Determine if SFUSD's Schedules of Award Costs present fairly, in all material respects,
        costs claimed on the Federal Cash Transactions Reports (FCTR), and if costs claimed,
        including cost sharing, are in conformity with NSF award terms and conditions.

2.      Identify matters concerning instances of noncompliance with laws, regulations, and
        provisions of the award agreements pertaining to NSF awards and weaknesses in
        SFUSD's internal control over financial reporting that could have a direct and material
        effect on the Schedules of Award Costs and SFUSD’s ability to properly administer,
        account for, and monitor its NSF awards.

 We conducted our audit in accordance with auditing standards generally accepted in the United
 States of America, Government Auditing Standards (2003 Revision) issued by the Comptroller
 General of the United States; and the National Science Foundation Audit Guide (September
 1996), as applicable. These standards and the NSF Audit Guide require that we plan and
 perform the audit to obtain reasonable assurance about whether amounts claimed to NSF as
 presented in the Schedules of Award Costs (Schedules A-1 and A-2) are free of material
 misstatements. An audit includes examining, on a test basis, evidence supporting the amounts
 and disclosures in the Schedules of Award Costs. An audit also includes assessing the accounting
 principles used and the significant estimates made by SFUSD, as well as evaluating the overall
 financial schedule presentation. We believe that our audit provides a reasonable basis for our
 opinion.




                                                2
SUMMARY OF AUDIT RESULTS

An audit was performed on the costs claimed on the financial reports submitted to NSF as well
as cost sharing provided by SFUSD on NSF Award Nos. ESR-9908165 and ESI-9813936. These
costs and the costs questioned by our audit are shown in the Schedules of Award Costs
(Schedules A-1 and A-2) and are summarized as follows:

                Funding                            Claimed       Questioned       Unacceptable
Award No.        Source           Budget            Costs          Costs           Cost Share
ESR-
9908165       NSF-Funded       $10,245,022      $7,943,014         $477,083
              Cost Sharing       2,292,018       2,141,081                0          $10,500
              Total Project    $12,537,040     $10,084,095         $477,083
ESI-
9813936       NSF-Funded         $1,619,775     $1,283,752         $227,603
              Cost Sharing          873,911        538,479                0          $57,441
              Total Project      $2,493,686     $1,822,231         $227,603

Except for the $704,686 in questioned salary, wages, fringe benefit, indirect and other costs and
$67,941 in unacceptable cost sharing described below, we determined that the costs claimed by
SFUSD appear fairly stated and are allowable, allocable, and reasonable for both NSF awards.
NSF funded salaries and wages and related fringe benefit costs of $69,315 were erroneously
charged to the NSF award; $207,511 of incorrectly calculated indirect costs were claimed; an
excess of $427,844 was claimed over the amount of costs recorded as expenses in SFUSD’s
books of accounts; and $16 of unallowable travel costs were claimed. Finally, $67,941 of cost
share was identified as unacceptable because it was either funded from another federal program
or double counted as cost share for the two NSF awards under audit.

SFUSD had a number of material control deficiencies that contributed to these questioned costs.
In general, SFUSD’s systems of internal controls were not adequate to properly administer,
account for, and monitor its NSF awards in compliance with NSF and federal grant requirements
in the areas related to salaries and wages, erroneous charges, indirect costs, and cost share.
Specifically:

       •      SFUSD lacked employee certifications and personnel activity reports before June
              30, 2002 to support $2.9 million (74 percent) of salary and fringe benefit costs
              charged to both awards. As a result of this internal control deficiency, we were
              required to perform extensive alternative procedures. While these procedures
              ultimately allowed us to verify the propriety of the payroll charges, the controls
              were not reliable as a means to safeguard NSF funds.




                                               3
       •       SFUSD erroneously charged $128,808 of stipends and consultant services costs
               associated with Award ESR-9908165 to Award ESI-9813936 and over claimed
               $427,844 of costs on Award ESR-9908165.

       •       SFUSD overcharged the two NSF awards in the amount of $207,511 for indirect
               costs because it used the California Department of Education-approved indirect
               cost rates ranging from beyond 8 through 13 percent instead of NSF’s
               predetermined, fixed 8-percent rate. The controls over calculating indirect costs
               were not reliable as a means to safeguard NSF funds.

       •       SFUSD lacked a system to identify, account for, monitor, and report cost sharing
               it contributed to both NSF awards. Therefore, SFUSD was unable to monitor the
               cost-sharing expenditures it claimed to NSF to ensure those costs were allowable
               and that SFUSD met its cost-sharing commitments for the NSF awards.

Accordingly, we recommend that the NSF Directors of the Division of Institution and Award
Support (DIAS) and the Division of Grants and Agreements (DGA) direct SFUSD to develop
and implement a financial management system, policies, and control processes to effectively
administer and monitor NSF funds, employee certifications and personnel activity reports in
compliance with OMB Circular A-87; implements proper systems to identify, track, and report
on cost sharing; and adequately trains its personnel responsible for determining eligibility of
costs and calculating indirect costs.

The awardee responded to the draft report on March 16, 2006. In its response, the awardee stated it
concurred with the findings that it lacked adequate supporting documentation for salary and fringe
benefit costs, that it did not have appropriate policies and procedures over claimed indirect costs,
and that its cost sharing was not recorded in its financial system. The awardee has implemented
several actions to address these findings. The awardee disagreed with the representation that it does
not understand the requirements of the grant and stated that it has maintained extensive and detailed
documentation in its program records to support its cost sharing. Finally, the awardee agreed that
there were inaccuracies in its draw-downs in 2003 but these draw downs were corrected on
subsequent FCTRs after the audit.

The findings in this report should not be closed nor should additional awards be made to SFUSD
until NSF verifies that all the recommendations have been adequately addressed and the proposed
corrective actions have been satisfactorily implemented. SFUSD’s response has been included in its
entirety in Appendix A.

For a complete discussion of the audit findings, refer to the Independent Auditors’ Report on
Compliance with Laws and Regulations and Internal Control Over Financial Reporting.




                                                 4
EXIT CONFERENCE

We conducted an exit conference on August 26, 2004, at SFUSD’s offices. We discussed
findings and recommendations as well as other observations contained in this report with those
attending. Representing SFUSD were:

               Name                       Title
               XXXXXXXXXX                 XXXXXXXXXXXX
               XXXXXXXXXX                 XXXXXXXXXXXXXXX

Representing Cotton & Company LLP were:

              Name                        Title
              XXXXXXXXXXXX                XXXXX
              XXXXXXX                     XXXXXXXX




                                              5
FINDINGS AND RECOMMENDATIONS
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


         INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES


We have audited costs claimed by San Francisco Unified School District (SFUSD) to the
National Science Foundation (NSF) on the Federal Cash Transactions Reports (FCTR) for the
NSF awards listed below. In addition, we audited the amount of cost sharing claimed on the two
awards. The FCTRs, as presented in the Schedules of Award Costs (Schedules A-1 and A-2), are
the responsibility of the SFUSD’s management. Our responsibility is to express an opinion on
the Schedules of Award Costs (Schedule A-1 and A-2) based on our audit.

           Award Number                   Award Period               Audit Period
           ESR-9908165                 09/01/99 to 08/31/04      09/01/99 to 03/31/04
           ESI-9813936                 06/01/99 to 05/31/04      06/01/99 to 03/31/04

Except as discussed in the following paragraph, we conducted our audit in accordance with
auditing standards generally accepted in the United States of America, Government Auditing
Standards issued by the Comptroller General of the United States in 2003, and the National
Science Foundation Audit Guide (September 1996), as applicable. These standards and the
National Science Foundation Audit Guide require that we plan and perform the audit to obtain
reasonable assurance about whether the amounts claimed to NSF as presented in the Schedules
of Award Costs (Schedules A-1 and A-2) are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the Schedules of
Award Costs (Schedules A-1 and A-2). An audit also includes assessing the accounting
principles used and significant estimates made by SFUSD management, as well as evaluating
overall financial schedule presentation. We believe that our audit provides a reasonable basis for
our opinion.

The Schedule of Questioned Costs (Schedule B-1) explains the $477,083 of NSF funded costs (6
percent of total costs) claimed to NSF that we questioned for allowability under Award No. ESR-
9908165. These costs include unallowable travel costs, incorrectly calculated indirect costs, and an
overclaim of expenditures on the FCTR. The Schedule of Cost Sharing (Schedule C-1) explains cost
sharing claimed in the amount of $10,500 that SFUSD received through another federal grant,
which we determined to be unacceptable under this award.


                                                 5
The Schedule of Questioned Costs (Schedule B-2) explains the $227,603 of NSF funded costs (17
percent of total costs) claimed to NSF that we questioned for allowability under Award No. ESI-
9813936. These costs include erroneously charged salary, fringe benefits, stipends, and consulting
fees and incorrectly calculated indirect costs. The Schedule of Cost Sharing (Schedule C-2)
explains that salary costs in the amount of $57,441 were already claimed as cost share on another
NSF award or double counted as cost share for both NSF awards under audit and thus, were deemed
unacceptable for Award ESI-9813936.

Questioned costs are (1) costs for which documentation exists to show that recorded costs were
expended in violation of laws, regulations, or specific award conditions, (2) costs that require
additional support by the awardee, or (3) costs that require interpretation of allowability by the
National Science Foundation’s Division of Institution and Award Support (DIAS). The final
determination as to whether such costs are allowable will be made by NSF. The ultimate
outcome of this determination cannot presently be determined. Accordingly, no adjustments have
been made to costs claimed for any potential disallowance by NSF.

In our opinion, except for $704,686 of questioned NSF-funded costs, the Schedules of Award
Costs (Schedule A-1 and Schedule A-2), referred to above present fairly, in all material respects,
costs claimed on the FCTRs for the period June 1, 1999, to March 31, 2004, in conformity with
the National Science Foundation Audit Guide, NSF Grant Policy Manual, terms and conditions
of the NSF awards and on the basis of accounting described in the Notes to the Financial
Schedules. These schedules are not intended to be a complete presentation of financial position
in conformity with accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards and provisions of the National Science
Foundation Audit Guide, we have also issued a report dated August 27, 2004, on our tests of
SFUSD’s compliance with certain provisions of laws, regulations, and the NSF award
agreements and our consideration of SFUSD’s internal control over financial reporting. That
report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in considering the results of our
audit.

This report is intended solely for the information and use of SFUSD’s management, NSF,
SFUSD’s federal cognizant agency, the Office of Management and Budget, and the Congress of
the United States of America and is not intended to be, and should not be used by anyone other
than these specified parties.

COTTON & COMPANY LLP
XXXXXXXXXXXXX
XXXXXXXXXXXXX
___________________________________
XXXXXXXXXXXXXXXX
Partner

August 27, 2004

                                                6
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


                    INDEPENDENT AUDITORS’ REPORT ON
               COMPLIANCE WITH LAWS AND REGULATIONS AND
               INTERNAL CONTROL OVER FINANCIAL REPORTING


We have audited costs claimed as presented in the Schedules of Award Costs (Schedules A-1
and A-2), which summarize financial reports submitted by San Francisco Unified School District
(SFUSD) to the National Science Foundation (NSF) and claimed cost sharing for Award No.
ESR-9908165 and No. ESI-9813936 listed below and have issued our report thereon dated
August 27, 2004.

           Award Number                 Award Period             Audit Period
           ESR-9908165               09/01/99 to 08/31/04     09/01/99 to 03/31/04
           ESI-9813936               06/01/99 to 05/31/04     06/01/99 to 03/31/04

We conducted our audit of the Schedules of Award Costs as presented in Schedules A-1 and A-2
in accordance with auditing standards generally accepted in the United States of America,
Government Auditing Standards issued by the Comptroller General of the United States in 2003,
and the National Science Foundation Audit Guide (September 1996), as applicable. These
standards and the National Science Foundation Audit Guide require that we plan and perform the
audit to obtain reasonable assurance that the financial schedules are free of material
misstatement.

COMPLIANCE WITH LAWS AND REGULATIONS

Compliance with applicable federal laws, regulations, and NSF award terms and conditions is the
responsibility of SFUSD’s management. As part of obtaining reasonable assurance about
whether the financial schedules are free of material misstatement, we performed tests of
SFUSD’s compliance with certain provisions of applicable laws, regulations, and NSF award
terms and conditions, noncompliance with which could have a direct and material effect on the
determination of financial schedule amounts. However, providing an opinion on compliance with
those provisions is not an objective of our audit, and accordingly, we do not express such an
opinion. The results of our tests of compliance disclosed instances of noncompliance that are


                                              7
required to be reported under Government Auditing Standards and the National Science
Foundation Audit Guide and are described in Finding Nos. 1 through 4 below.
INTERNAL CONTROL OVER FINANCIAL REPORTING

SFUSD management is responsible for establishing and maintaining internal control. In fulfilling
this responsibility, estimates and judgments made by management are required to assess
expected benefits and related costs of internal control policies and procedures. The objectives of
internal control are to provide management with reasonable, but not absolute, assurance that
assets are safeguarded against loss from unauthorized use or disposition, and that transactions are
executed in accordance with management’s authorization and recorded properly to permit the
preparation of financial schedules in accordance with accounting principles prescribed by NSF.
Because of inherent limitations in any internal control, misstatements due to errors or fraud may
nevertheless occur and may not be detected. Also, projection of any evaluation of internal control
to future periods is subject to the risk that procedures may become inadequate because of
changes in conditions, or that the effectiveness of the design and operation of policies and
procedures may deteriorate.

In planning and performing our audit of the Schedules of Award Costs (Schedules A-1 and A-2)
for the periods September 1, 1999, through March 31, 2004 and June 1, 1999 through March 31,
2004, respectively, we considered SFUSD’s internal control over financial reporting in order to
determine our auditing procedures for the purpose of expressing our opinion on the financial
schedules and not to provide an opinion on internal control over financial reporting.
Accordingly, we do not express such an opinion.

We noted, however, certain matters described below involving the internal control over financial
reporting and its operation that we consider to be reportable conditions under standards
established by the American Institute of Certified Public Accountants. Reportable conditions
involve matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control over financial reporting that, in our judgment, could adversely
affect SFUSD’s ability to record, process, summarize, and report financial data consistent with
management’s assertions in the financial schedules. Reportable conditions we found are
described in Finding Nos. 1 through 4 below.

A material weakness is a reportable condition in which the design or operation of one or more of
the internal control elements does not reduce, to a relatively low-level, the risk that
misstatements in amounts that would be material in relation to the financial schedules being
audited may occur and not be detected within a timely period by employees in the normal course
of performing their assigned functions. Our consideration of internal control over financial
reporting would not necessarily disclose all matters related to internal control that might be
reportable conditions and, accordingly, would not necessarily disclose all reportable conditions
that are also considered to be material weaknesses. We consider all of the reportable conditions
described below to also be material weaknesses.




                                                8
FINDINGS

Finding 1. Lack of Adequate Supporting Documentation for Salary and Fringe Benefit
Costs

SFUSD lacked the required employee certifications and personnel activity reports to support
$2.9 million (74 percent) of total salary and fringe benefit costs charged to both NSF awards. As
a result, it was unable to evidence that labor costs charged to NSF awards were actually incurred
or benefited NSF programs. Claimed amounts which lacked labor effort certifications are as
follows:

                           Amounts Claimed Without Labor Effort
                                        Certifications
Award No.                 Salaries and Wages       Fringe Benefits                   Total
ESR-9908165                    $2,312,380                $442,540                 $2,754,920
ESI-9813936                       162,338                  30,501                    192,839
                               $2,474,718                $473,041                 $2,947,759

SFUSD did not require employees working on NSF awards to provide labor effort certifications,
personnel activity reports, or semiannual time accounting certifications before June 30, 2002.
SFUSD’s accounting system allocated payroll charges for each pay period to funding sources
(grants or other cost objectives) based on Site Request for Personnel Action (SRPA) or Request
for Position Funding (RPF) forms prepared and submitted to the Payroll Department by each
employee’s supervisor. SRPAs and RPFs detailed the percentage of salary costs to be allocated
to each funding source based on the supervisor’s estimate of the percentage of time the employee
was expected to work on each grant or cost activity. The supervisor completed an SRPA or RFP
for all new employees and when an employee’s duties changed.

OMB Circular A-87, Attachment B, Section 11h, states that, to be allowable, charges to federal
awards for salaries and wages, whether treated as direct or indirect costs, must be based on
payroll documented in accordance with the generally accepted practice of the governmental unit
(SFUSD) and approved by a responsible official of that unit. Specifically, when employees are
expected to work solely on a single federal award or cost objective, charges for their salaries and
wages must be supported by periodic (at least semi-annual) certifications indicating that the
employees worked only on that program. The certification should be signed by the employee or
supervisory official having direct knowledge of the work performed by the employee. When
employees work on multiple activities or cost objectives, however, a distribution of salaries or
wages must be supported by personnel activity reports that reflect an after-the-fact distribution of
the actual activity of each employee; account for total activity for which each employee is
compensated; be prepared at least monthly; and be signed by the employee.




                                                 9
Because SFUSD did not follow these requirements and instead charged labor costs to NSF
awards based on estimates rather than actual time spent, it was necessary for us to perform
alternative audit procedures to assess the reasonableness and propriety of the claimed labor costs.
We interviewed 17 personnel of 30 who charged time to NSF awards, including two supervisors
and recent retirees still living in the San Francisco area. These individuals stated that they
performed duties in accordance with the award agreements which, in the absence of personnel
activity reporting required by OMB Circular A-87, satisfied our concerns that the labor costs
were related to the awards and reasonably approximated the actual costs. Nonetheless, without
personnel activity reports or labor effort certifications, SFUSD does not have adequate processes
which safeguard NSF funds by providing reliable means of charging labor costs to its NSF
awards.

SFUSD lacked a sound labor allocation process because it was not aware of the federal and NSF
requirements. SFUSD’s Urban Systemic Program’s XXXXXXXX stated that she learned about
OMB Circular A-87 timekeeping requirements at an NSF conference held in the spring of 2003
which was prompted by NSF because of problems found in other USP awards. Consequently,
the XXXXXXXX prepared fall semester 2002 certifications retroactively and prepared current
spring semester 2003 certifications. The certifications were attached to existing weekly activity
logs that depicted morning and afternoon activities for the semester for the instructional
specialists. These time certifications, however, lacked an actual certification statement above the
employee and supervisor signatures and were not prepared at least monthly for partially funded
employees, per California School Accounting Manual Procedure No. 407, Documenting Salaries
and Wages Charged to Federal Programs (December 2002). SFUSD officials indicated that time
certifications had been processed for other federal programs during this same time period. Thus,
SFUSD met documentation requirements for other federal awards but did not comply with NSF
award requirements.

More recently, SFUSD has adopted a system for accounting for time for federal programs that
was approved by the U.S. Department of Education for school districts in California. Per the
SFUSD Weekly Administrative Directive (WAD) of September 8, 2004, SFUSD has distributed
documentation titled Time Accounting Worksheets to all staff members to complete.

SFUSD will collect these Time Accounting Worksheets twice in FY 2005 for positions that are
funded by either a mix of federal and state sources or various federal sources. A multi-funded
employee is now required to maintain records of his or her effort worked for each program
funding source. For employees funded by a single funding source, they are now required to
complete the 100% Work Certification Form at the end of each semester of the school year
certifying that services performed relate to a single funding source. This new procedure will
allow SFUSD to meet the labor effort reporting requirements of its NSF grants.

Recommendation 1: We recommend that the NSF Directors for the Division of Institution and
Award Support (DIAS) and the Division of Grants and Agreements (DGA) follow-up on
SFUSD’s implementation of policies and procedures, per SFUSD Weekly Administrative
Directive of September 8, 2004 to ensure that employees maintain semi-annual certifications or


                                                10
monthly personnel activity reports, as applicable, to support salaries and wages charged to NSF
awards, as required by OMB Circular A-87 Attachment B, Section 11h.

SFUSD Comments: SFUSD concured with the finding and stated that the program managers will
continue to follow-up with affected employees to ensure proper documentation is maintained for
staff members working full time or part time in all categorical funds and federal grants, per their
September 2004 weekly administrative directive.

Auditors’ Additional Comments: SFUSD’s corrective actions, as described in its comments, are
responsive to our recommendations. This report finding should not be closed until NSF verifies
that the corrective action has been satisfactorily implemented.

Finding 2. Lack of Appropriate Policies and Procedures over Claimed Indirect Costs

SFUSD overcharged its two NSF awards in the amount of $207,511 for indirect costs. This
occurred because SFUSD used the California Department of Education (CDE)-approved indirect
cost rates instead of the lower rate specified in its NSF award documents.

According to award terms, SFUSD should have claimed indirect costs of $474,052. Instead, it
claimed $681,563 (Schedules A-1 and A-2), because it incorrectly applied the CDE-approved
indirect cost rates (which ranged from beyond 8 to 13 percent) rather than the predetermined,
fixed 8-percent indirect cost rate specified in the NSF grant agreements. As a result, SFUSD
overcharged Award Nos. ESR-9908165 and ESI-9813936 for $207,511 for indirect costs.

CDE calculated SFUSD’s indirect cost rates using the Standardized Account Code Structure ICR
worksheet that SFUSD submitted to CDE along with its year end financial reports. The final
approved ICR was released annually in a letter to SFUSD for use, “as allowable,” for federal and
state programs. However, the letter provided no additional guidance to indicate that the
approved indirect cost rate could be limited by the language in federal award documents
authorizing a specific rate.

Also, budget and finance personnel were not aware of the indirect cost rates and allocation bases
specified in the two NSF awards. SFUSD should have provided, at a minimum, appropriate
guidance to staff assigned to determine the prescribed indirect costs for the NSF awards.

Recommendation 2: We recommend that the NSF Directors of DIAS and DGA direct SFUSD to
develop and implement written policies and procedures to ensure that appropriate personnel are
made aware of accurate indirect cost terms of all NSF awards, and that indirect costs claimed are
calculated in accordance with those terms.

SFUSD Comments: SFUSD concured with the finding and stated that documentation stating any
restrictions on indirect costs or other program expenditures will be given to the Office of the
Chief Financial Officer for distribution to the appropriate budget and accounting offices. Since
the period of this audit, the Director of Fiscal Services has placed key staff in the State & Federal
Accounting operations unit and the training of accounting staff has improved. It also instituted

                                                 11
quarterly review meetings with accounting and program managers to ensure a shared knowledge
of spending restrictions and accurate reporting.

Auditors’ Additional Comments: SFUSD’s corrective actions, as described in its comments are
responsive to our recommendation except that it did not address preparing written policies and
procedures. This report finding should not be closed until NSF verifies that the corrective action
has been satisfactorily implemented.

Finding 3. Lack of a System to Identify, Account for, Monitor, and Report Cost Sharing

SFUSD lacked a system to identify, account for, monitor, and report cost sharing it contributed
to both NSF awards, raising questions as to the reliability and integrity of the $2,679,560 SFUSD
claimed on its certified cost sharing reports submitted to NSF.

NSF’s Grant Policy Manual Section 333.6, Cost Sharing Records and Reports, and OMB
Circular A-110, Section 23, require grantees to maintain records of all costs claimed as cost
sharing, and states that those records are subject to audit. These regulations also state that cost-
sharing expenses must be verifiable from the recipient’s records, not be included as contributions
to any other federal award, or funded by any other federal award. OMB Circular A-110, Section
23, also states that, to be accepted as part of the recipient’s cost sharing, expenditures must be
necessary and reasonable for proper and efficient accomplishment of project or program
objectives and allowable under applicable cost principles.

SFUSD’s accounting system, while it captured all NSF funded grant expenses, it did not,
however, separately identify and track those expenses incurred as cost sharing by SFUSD. Thus,
SFUSD could not readily identify in its accounting records the cost-sharing amounts it had
claimed under NSF’s two awards. In fact, to support claimed cost-sharing, program officials
maintained schedules and copies of supporting documentation in separate binders for each
award.

Additionally, we identified salary costs of $67,941 as unacceptable because they were funded
from other federal programs or incorrectly claimed as expenses on both NSF awards. Also, $1.9
million (72 percent) of cost sharing claimed was for salaries and fringe benefit costs; but because
SFUSD did not maintain employee certifications and personnel activity reports, as discussed in
Finding 1 above, SFUSD could not support that these costs were actually incurred or benefited
NSF’s awards. Accordingly, to verify that the labor cost sharing claimed was allowable and
allocable, we had to perform extensive alternative procedures. While we were able to ultimately
ensure the reasonableness of the labor cost sharing amounts, nonetheless, SFUSD’s controls
were not reliable as a means to safeguard NSF funds.

SFUSD representatives stated that SFUSD does not have a system, neither written policies nor
procedures, for identifying and accounting for cost sharing in the accounting system. This may
explain why SFUSD representatives did not appear to understand or seem aware that cost-
sharing expenditures had to be identified in the accounting records, supported by time
certifications in accordance with OMB Circular A-87, and certified and reported to NSF

                                                12
accurately and annually, as allowable under federal and NSF requirements. As a result, SFUSD
was unable to monitor cost-sharing expenditures to ensure that costs claimed were allowable and
that it met its commitment under the awards.

Recommendation 3: We recommend that the NSF Directors of DIAS and DGA direct SFUSD to
establish a system to identify, account for, monitor, and report cost-sharing expenses and at a
minimum, ensure that:

       •      Cost sharing for NSF funds is separately tracked, accounted for, and verifiable in
              SFUSD’s accounting system records; not included as contributions for any other
              federally-assisted project or program; necessary and reasonable for proper and
              efficient accomplishment of project and program objectives; allowable under
              applicable cost principles; and not paid by the federal government under another
              award;

       •      All NSF awards with cost-sharing requirements are identified and recorded in
              SFUSD’s accounting system records as they are required by NSF agreements;

       •      Cost-sharing costs incurred and claimed on NSF awards are appropriately
              reviewed, approved, and recorded as they occur to establish that they are
              reasonable, allocable, and allowable to NSF awards;

       •      Cost-sharing records for NSF awards are adequately maintained and documented;
              and,

       •      Cost-sharing policies and procedures are written and consistent with NSF
              requirements, and communicated to appropriate SFUSD staff.

SFUSD’s Comments: SFUSD concured with the finding and stated that the California
Department of Education has not yet identified a way to notate cost sharing in the accounting
system using California’s Standardized Accounting Code Structure. SFUSD disagrees with the
audit report representation that its representatives did not understand the requirements of the
grant.

Auditors’ Additional Comments: Until SFUSD can identify its cost-sharing expenditures in the
accounting records it is not responsive to our recommendations to monitor cost sharing
expenditures to ensure that costs claimed were allowable and that it met its commitment under
the awards. Although usually more efficient, it is not necessary to track cost sharing in SFUSD’s
accounting system. However, it is imperative that the manual processes used and the written
policies and procedures are effective in meeting all the requirements of OMB Circulars A-87, A-
110 and the NSF Grant Policy Manual. This report finding should not be closed until this
recommendation has been adequately addressed and NSF verifies that the corrective action has
been satisfactorily implemented.



                                               13
Finding 4. Inaccurate Expenditure Reporting

SFUSD inaccurately reported expenditures on both of the NSF awards as follows:

       •       It erroneously charged $128,808 of stipend and consultant costs associated with
               Award ESR-9908165 to Award ESI-9813936. SFUSD program officials became
               aware of the errors in August 2003, however they were not corrected until April
               2004.

       •       Claimed costs were $427,844 more than costs recorded on its books of accounts.
               A former accountant inadvertently reported expenditures twice on the FCTR.

       •       It erroneously charged salaries and wages of $56,246 and associated fringe benefit
               costs of $13,069 to the NSF award. These costs were not related to the NSF
               award and should have been charged to SFUSD’s general fund.

Accordingly, expenditures reported to NSF were incorrect and excess Federal funds were drawn
down by SFUSD.

OMB Circular A-110, Section 21, requires awardee financial management systems to provide
accurate, current, and complete disclosure of the financial results of each award; records that
adequately identify the source and application of funds; effective control over and accountability
for all funds, assuring that all funds are used solely for authorized purposes; comparison of
outlays with budget amounts for each award; written procedures for determining the
reasonableness, allocability and allowability of costs in accordance with the provisions of the
applicable federal and award requirements; and accounting records, including cost accounting
records, supported by source documentation.

SFUSD program officials noted that expenditures for consultant services of $29,634 and stipends
of $99,174 for Award No. ESR-9908165 were charged erroneously to Award No. ESI-9813936
in August 2003. Program officials noted this discrepancy that same month while reviewing
fiscal year-end expenditure reports and immediately relayed this discrepancy to SFUSD’s federal
program accountants, however the accountants did not correct the error. Program officials
submitted a memorandum to the Director of Fiscal Services on April 30, 2004 to reverse these
charges and SFUSD’s fiscal office reversed these charges the same day. Although the charges
were reversed in SFUSD’s financial system, NSF was never notified of these erroneous charges.


SFUSD also over-reported $427,844 of expenses on its June 30, 2002 FCTR. SFUSD was
unaware of this over-reported amount until this audit. Based on an analysis of documentation,
SFUSD explained that a former accountant used incorrect expenditure reports as the basis for
reporting the erroneous amounts to NSF.


                                               14
Recommendation 4: We recommend that the NSF Directors of DIAS and DGA direct SFUSD to
strengthen its policies and procedures for making timely adjustments for program accounting
errors communicated between SFUSD program officials and SFUSD Federal program
accountants and for determining how costs are allowable and allocable to a federal award. We
also recommend that SFUSD be directed to enhance its procedures for reconciliation of FCTR
amounts reported to NSF to its accounting records.

SFUSD Comments: SFUSD concured with the finding and stated a new manager in their State
and Federal Accounting unit has developed practices to review supporting documentation for
claims, to monitor draw downs of Federal funds and provide program managers with copies of
supporting documentation to reconcile with their program records.

Auditors’ Additional Comments: SFUSD’s corrective actions, as described in its comments, are
responsive to our recommendations. This report finding should not be cleared until NSF verifies
that the corrective action has been satisfactorily implemented.

This report is intended solely for the information and use of SFUSD’s management, NSF,
SFUSD’s federal cognizant agency, the Office of Management and Budget, and the Congress of
the United States and is not intended to be and should not be used by anyone other than these
specified parties.

COTTON & COMPANY LLP

XXXXXXXXXXXXX
XXXXXXXXXXXXX
_________________________________
XXXXXXXXXXXXXXXX
Partner

August 27, 2004




                                              15
FINANCIAL SCHEDULES
 AND SUPPLEMENTAL
    INFORMATION
                                                                                             SCHEDULE A-1

                         SAN FRANCISCO UNIFIED SCHOOL DISTRICT
                               SAN FRANCISCO, CALIFORNIA

               NATIONAL SCIENCE FOUNDATION AWARD NO. ESR-9908165
                           SCHEDULE OF AWARD COSTS
                      SEPTEMBER 1, 1999 TO MARCH 31, 2004
                                  INTERIM



                                         Approved             Claimed        Questioned
  Cost Category                           Budget               Costs           Costs              Schedule
  Salaries and Wages                     XXXXXX              XXXXXX
  Fringe Benefits                         XXXXX               XXXXX
  Permanent Equipment                      XXXX                XXXX
  Travel                                   XXXX                XXXX                  $16        B-1, Note 1
  Participant Support:                   XXXXXX              XXXXXX
     Stipends                                                                  (99, 174)        B-1, Note 2
  Other Direct Costs:
     Materials and Supplies               XXXXX               XXXXX
     Publication Costs                     XXXX                XXXX
     Consultant Services                  XXXXX               XXXXX             (29,634)        B-1, Note 2
     Subcontracts                        XXXXXX              XXXXXX
  Other                                    XXXX                XXXX             ______
  Total Direct Costs                     $9,739,648          $6,943,388      $(128,792)
  Indirect Costs                            505,374             571,782        178,031          B-1, Note 3
  Subtotal                             $10,245,022           $7,515,170        $49,239
  Costs Claimed in Excess of
  Incurred                               _________             427,844          427,844         B-1, Note 4
  Total Costs                          $10,245,022           $7,943,014*      $477,083
  Cost Sharing                           $2,292,018          $2,141,081

* Total claimed costs agree with total expenditures reported on the FCTR for the quarter ended March 31, 2004.
Claimed costs are based on the Summary of Claimed Costs prepared by SFUSD from its books of accounts.




                                                        15
                                                                                SCHEDULE B-1

                   SAN FRANCISCO UNIFIED SCHOOL DISTRICT
                         SAN FRANCISCO, CALIFORNIA

          NATIONAL SCIENCE FOUNDATION AWARD NO. ESR-9908165
                   SCHEDULE OF QUESTIONED COSTS
                 SEPTEMBER 1, 1999 TO MARCH 31, 2004


1.   Travel. SFUSD claimed $16 for an unallowable room charge and an erroneous parking
     fee. Its representatives were unable to explain how the errors occurred, and stated that
     these costs would be removed from claimed costs.

2.   Erroneously Claimed Costs. SFUSD erroneously charged costs associated with Award
     No. ESR-9908165 for consultant services ($29,634) and stipends ($99,174) to Award No.
     ESI-9813936. Its representatives were unable to explain the cause except for errors when
     the expenditures were coded into the accounting system.

     OMB Circular A-87, Subpart C, Basic Guidelines, paragraph 3a, states that a cost is
     allocable to a particular cost objective if the goods or services are chargeable or
     assignable to such cost objective in accordance with relative benefits received.

     SFUSD program officials submitted a memorandum to the director of fiscal services to
     reverse these charges from the INQUIRES award to the Urban Systemic Program award
     9 months after reporting these expenditures in the June 30, 2003, cost report, or April 30,
     2004.

3.   Indirect Costs. SFUSD did not claim indirect costs in accordance with award terms.
     Section III, B1, of the award states that indirect costs will be based on a fixed 8-percent
     indirect rate applied to direct costs less participant support costs. SFUSD did not use the
     8-percent rate in all years and applied the rates to total direct costs, including participant
     support costs. We calculated questioned costs as follows:

                Total direct costs claimed                               $6,943,388
                       Less: Questioned Costs                               427,860
                       Plus: Negative questioned costs                      128,808
                     Less: Participant support costs
                     including negative questioned
                        PSC costs (1,623,280 + 99,174)                   $1,722,454
                Indirect cost base per audit                             $4,921,882
                Fixed indirect cost rate                                          8%
                Indirect costs per audit                                   $393,751
                Less: Claimed indirect costs                                571,782
                Questioned costs                                           $178,031


                                               16
4.   Costs Claimed in Excess of Costs Incurred. Net disbursements reported on the March
     31, 2004, FCTR were $427,844 more than costs recorded on SFUSD’s books of
     accounts. A former accountant inadvertently reported expenditures twice on the FCTR.

     OMB Circular A-87, Attachment A, General Principles for Determining Allowable
     Costs, Section C, states that to be allowable under federal awards, costs must be
     reasonable and adequately documented.




                                          17
                                                                                             SCHEDULE A-2



                         SAN FRANCISCO UNIFIED SCHOOL DISTRICT
                               SAN FRANCISCO, CALIFORNIA

               NATIONAL SCIENCE FOUNDATION AWARD NO. ESI-9813936
                           SCHEDULE OF AWARD COSTS
                      JUNE 1, 1999 THROUGH MARCH 31, 2004
                                     INTERIM



                                        Approved             Claimed        Questioned
    Cost Category                        Budget               Costs           Costs             Schedule
                                                                                               B-2, Note 1
    Salaries and Wages                  XXXXXX               XXXXXX            $56,246
    Fringe Benefits                       XXXX                 XXXX             13,069         B-2, Note 1
    Travel                                XXXX                 XXXX
    Participant Support:                 XXXXX
       Stipends                                               XXXXX              99,174        B-2, Note 2
       Subsistence                                             XXXX
       Other                                                   XXXX
    Other Direct Costs:
       Materials and Supplies              XXXX                XXXX
       Consultant Services                XXXXX               XXXXX              29,634        B-2, Note 2
       Other Services                                         XXXXX
       Subcontracts                       XXXXX                ______            _____
    Total Direct Costs                 $1,546,400         $1,215,728          $198,123
    Indirect Costs                         73,375            109,781            29,480         B-2, Note 3
    Subtotal                           $1,619,775         $1,325,509          $227,603
    Costs Incurred in Excess
    of Claimed                          ________               41,757          _______         B-2, Note 4
    Total Costs                        $1,619,775         $1,283,752*         $227,603
    Cost Sharing                         $873,911            $538,479

* Total claimed costs agree with total expenditures reported on the FCTR for the quarter ended March 31, 2004.
Claimed costs are based on the Summary of Claimed Costs prepared by SFUSD from its books of accounts.




                                                        18
                                                                                SCHEDULE B-2

                   SAN FRANCISCO UNIFIED SCHOOL DISTRICT
                         SAN FRANCISO, CALIFORNIA

          NATIONAL SCIENCE FOUNDATION AWARD NO. ESR-9813936
                  SCHEDULE OF QUESTIONED COSTS
                     JUNE 1, 1999 TO MARCH 31, 2004


1.   Salary and Wages/Fringe Benefits. SFUSD erroneously charged salaries and wages of
     $56,246 and associated fringe benefit costs of $13,069 to the NSF award, or $69,315. Its
     personnel charged an employee’s salary and fringe benefits to the INQUIRES award
     rather than correctly as a charge to the general fund.

     OMB Circular A-87, Attachment A, General Principles for Determining Allowable
     Costs, Section C3a, states that a cost is allowable to a particular cost objective if the
     goods or services involved are chargeable or assignable to such cost objective in
     accordance with relative benefits received.

2.   Erroneously Claimed Costs. SFUSD erroneously charged Award No. ESR-9908165
     costs for consultant services of $29,634 and stipends of $99,174 to Award No. ESI-
     9813936. Its representatives were unable to explain the cause except for error when the
     expenditures were coded into the accounting system.

     OMB Circular A-87, Subpart C, Basic Guidelines, Paragraph 3a, states that a cost is
     allocable to a particular cost objective if the goods or services are chargeable or
     assignable to such cost objective in accordance with relative benefits received.

     SFUSD program officials submitted a memorandum to the Director of Fiscal Services to
     reverse these charges from the INQUIRES award to the Urban Systemic Program award
     9 months after reporting of these expenditures in the June 30, 2003 cost report, or April
     30, 2004.

3.   Indirect Costs. SFUSD did not claim indirect costs in accordance with award terms.
     Section III, B1, of the award states that indirect costs will be based on a fixed 8-percent
     indirect rate applied to direct costs less participant support costs. SFUSD did not use the
     8-percent rate in all years and applied the rates to total direct costs, including participant
     support costs.

     GPM 632.2 states that NSF generally provides no amounts for indirect costs for
     participant support costs. According to SFUSD representatives, its accounting personnel
     were not notified of special provisions in the award or NSF regulations related to indirect
     costs. We calculated questioned costs as follows:




                                              19
                Total direct costs claimed                            $1,215,728
                Plus: Unclaimed expenditures                              41,757
                Less: Questioned costs                                   198,123
                Less: Participant support costs not
                questioned ($154,776 - $99,174)                           55,602
                Total indirect cost base per audit                    $1,003,760
                Fixed indirect cost rate                                       8%
                Indirect costs per audit                                 $80,301
                Less: Claimed indirect costs                             109,781
                Questioned costs                                         $29,480

4.   Costs Incurred in Excess of Costs Claimed. Net disbursements reported on the March
     31, 2004, FCTR were $41,757 less than costs recorded on SFUSD’s books of accounts,
     because SFUSD had reached the authorized funding level of the award as of December
     31, 2003.

     OMB Circular A-87 Attachment A, General Principles for Determining Allowable Costs,
     Section C, Paragraphs d and e, states that to be allowable under federal Awards, costs
     must conform to any limitations or exclusions set forth in these principles, federal laws,
     terms and conditions of the federal award, or other governing regulations as to types or
     amounts of cost items and be consistent with policies, regulations, and procedures that
     apply uniformly to both federal awards and other activities of the governmental unit.




                                               20
                                                                                         SCHEDULE C-1


                       SAN FRANCISCO UNIFIED SCHOOL DISTRICT
                             SAN FRANCISCO, CALIFORNIA

               NATIONAL SCIENCE FOUNDATION AWARD NO. ESR-9908165
                           SCHEDULE OF COST SHARING
                      SEPTEMBER 1, 1999 TO AUGUST 30, 2003
                                   INTERIM



                                                                   Unacceptable         Schedule
       Cost Category                       Claimed Costs              Costs             Reference
       Salaries and Wages                     XXXXXX                   $10,500            Note 1
       Teacher Lead Substitutes                 XXXX
       Fringe Benefits                         XXXXX
       Permanent Equipment                     XXXXX
       Travel                                   XXXX
       Supplies                                XXXXX
       Printing                                 XXXX
       Math Activities                          XXXX                     _____
       Total                                  $2,141,081*              $10,500

* Total claimed costs are based on the Summary of Claimed Costs prepared and certified by SFUSD as of August
30, 2003.

1.      Salary and Wages. SFUSD claimed $10,500 in salaries and wages that were paid with
        federal funds. GPM Section 333.6, Cost Sharing Records and Reports, requires a grantee
        to maintain records of all costs claimed as cost sharing to verify that these costs are not
        included as contributions to any other federal award or funded by any other federal
        award. The $10,500 was funded from the Eisenhower Fund (Title II) passed to SFUSD
        through the California Department of Education.




                                                      21
                                                                                           SCHEDULE C-2


                        SAN FRANCISCO UNIFIED SCHOOL DISTRICT
                              SAN FRANCISCO, CALIFORNIA

              NATIONAL SCIENCE FOUNDATION AWARD NO. ESI-9813936
                         SCHEDULE OF COST SHARING
                          JUNE 1, 1999 TO JUNE 30, 2003
                                    INTERIM



                                                                   Unacceptable         Schedule
         Cost Category                      Claimed Costs             Costs             Reference
         Salaries and Wages                   XXXXXX                    $57,441          Note 1
         Substitute Teachers                    XXXX
         Stipends                               XXXX
         Fringe Benefits                        XXXX
         Science Equip. & Supplies             XXXXX                      _____
         Total                                 $538,479*                $57,441

* Total claimed costs are based on the Summary of Claimed Costs prepared and certified by SFUSD as of June 30,
2003.

1.      Salary and Wages. SFUSD claimed $57,441 in salaries and wages either funded from
        another federal program or double counted for both Award No. ESR-9908165 and No.
        ESI-9813936 from non-federal sources. GPM Section 333.6, Cost Sharing Records and
        Reports, requires grantees to maintain records of all costs claimed as cost sharing to
        verify that these costs are not included as contributions to any other federal award or
        funded by any other federal award. The $57,441 in unacceptable costs claimed as cost
        sharing included:

        •        SFUSD claimed $16,400 (0.2 full-time equivalent) as Award No. ESI-9813936
                 cost-share expenses, but this employee’s full salary had already been claimed (one
                 full-time equivalent) as NSF share under Award No. ESR-9908165.

        •        SFUSD claimed $16,130 and $12,046 for two employees as cost-share expenses
                 under Award No. ESI-9813936 cost-share expenses that were also claimed as
                 NSF share under Award No. ESR-9908165.

        •        SFUSD claimed $12,865 of salary costs as cost-sharing expenses on both NSF
                 grants. We questioned these duplicate costs under Award No. ESI-9813936.




                                                      22
                                                                                SCHEDULE D

              SAN FRANCISCO UNIFIED SCHOOL DISTRICT
       SUMMARY SCHEDULE OF AWARDS AUDITED AND AUDIT RESULTS
                    JUNE 1, 1999 TO MARCH 31, 2004

    Summary of Awards Audited

     Award Number                     Award Period                     Audit Period
     ESR-9908165                    09/01/99 – 08/31/04            09/01/99 – 03/31/04
     ESI-9813936                    06/01/99 – 05/31/04            06/01/99 – 03/31/04



     Award Number                    Type of Award                 Award Description
     ESR-9908165                 Cooperative Agreement          Urban Systemic Program
     ESI-9813936                 Grant                          Inquiry, Quality
                                                                Investigations and Reform
                                                                in Science (Inquires)



    Summary of Questioned and Unresolved Costs by Award

NSF Award           Award         Claimed       Questioned       Unresolved      Unsupported
Number              Budget         Costs          Costs            Costs            Costs
ESR-9908165       $10,245,022    $7,943,014        $477,083           $0                 $0
ESI-9813936        $1,619,775    $1,283,752        $227,603           $0                 $0

    Summary of Questioned Cost by Explanation

                                   Questioned       Internal Control       Noncompliance
     Category                        Costs              Finding               Finding
     Salary & Wages                  $69,315              Yes                   Yes
     Travel                               16              No                    No
     Indirect Costs                  207,511              Yes                   Yes
     Erroneously Claimed Costs       128,808              Yes                   Yes
     FCTR Overclaim                  427,844              Yes                   Yes
     Negative Questioned Cost       (128,808)             Yes                   Yes
     Total Questioned Cost         $704,686




                                              23
Summary of Noncompliance and Internal Control Findings

                                   Noncompliance or
Findings                           Internal Control?   Material or Reportable?
Salaries and Wages                          Both              Material
Cost Sharing                                Both              Material
Indirect Costs                              Both              Material
Inaccurate Expenditure Reporting            Both              Material




                                       24
                   SAN FRANCISCO UNIFIED SCHOOL DISTRICT
                         SAN FRANCISCO, CALIFORNIA

                      NOTES TO THE FINANCIAL SCHEDULES
                       FROM JUNE 1, 1999 TO MARCH 31, 2004


Note 1: Summary of Significant Accounting Policies

        Accounting Basis

        The accompanying financial schedules have been prepared in conformity with National
        Science Foundation (NSF) instructions. Schedules A-1 and A-2 have been prepared
        from reports submitted to NSF. The basis of accounting used in preparing these reports
        differs from generally accepted accounting principles. The following information
        summarizes these differences:

        A.   Equity

        Under terms of the award, all funds not expended according to the award agreement
        and budget at the end of the award period are to be returned to NSF. Therefore, the
        awardee does not maintain any equity in the award, and any excess cash received from
        NSF over final expenditures is due back to NSF.

        B.   Equipment

        Equipment is charged to expense in the period during which it is purchased instead of
        being recognized as an asset and depreciated over its useful life. As a result, expenses
        reflected in the Schedule of Award Costs include the cost of equipment purchased
        during the period rather than a provision for depreciation.

        Except for awards with nonstandard terms and conditions, title to equipment under NSF
        awards vests in the recipient, for use in the project or program for which it was
        acquired, as long as it is needed. The recipient may not encumber the property without
        approval of the federal awarding agency, but may use the equipment for its other
        federally sponsored activities, when it is no longer needed for the original project.

        C.   Inventory

        Minor materials and supplies are charged to expense during the period of purchase. As
        a result, no inventory is recognized for these items in the financial schedules.




                                              25
          D.   Income Taxes

          SFUSD is a local governmental entity and is exempt from income taxes under the
          Internal Revenue Code.

Note 2:        NSF Cost Sharing and Matching

The following represents cost sharing requirements and actual cost sharing as of August 30, 2003
for Award No. ESR-9908165 and June 30, 2003 for Award No. ESI-9813936:


                                        Cost Sharing         Actual Cost
                   Award No.             Required          Sharing Claimed
                   ESR-9908165            $2,292,018           $2,141,081
                   ESI-9813936             $873,911              $538,479



Note 3:         Indirect Cost Rates

    Award No.        Indirect Cost Rate                           Base
    ESR-9908165             8.0%           Total direct costs less participant support costs.
    ESI-9813936             8.0%           Total direct costs less participant support costs.




                                               26
APPENDIX A: AUDITEE’S COMMENTS TO REPORT
                    San Francisco Unified School District’s Response to the
                          Draft Financial Audit Report Received for
        National Science Foundation Award Number ESR –9908165 and ESI – 9813936

Finding 1. Lack of Adequate Supporting Documentation for Salary and Fringe Benefit
Costs
The District concurs with the finding. As stated in the audit report, program and financial staff
were made aware of this deficiency in compliance at an NSF conference held in the spring of
2003 and steps were taken to remedy the problem. In September of 2004, a weekly
administrative directive was distributed with appropriate forms to collect proper documentation
for staff members working full time or part time in all categorical funds and federal grants. The
program managers will continue to follow-up with affected employees to ensure the proper
documentation is maintained.

Finding 2. Lack of Appropriate Policies and Procedures over Claimed Indirect Costs
The District concurs with the finding and recommendation. Using the state-determined rate,
SFUSD did incorrectly overcharge the indirect cost rate for these grants. Since the period of this
audit, XXXXXX of Fiscal Services has placed key staff in the State & Federal Accounting
operations unit and the training of accounting staff has improved. To prevent improper indirect
costs charges from occurring in the future, documentation stating any restrictions on indirect
costs or other program expenditures will be given to the Office of the Chief Financial Officer for
distribution to the appropriate budget and accounting offices. The District has also instituted
quarterly review meetings with accounting and program managers to ensure a shared knowledge
of spending restrictions and accurate reporting.

Finding 3. Lack of a System to Identify, Account for, Monitor, and Report Cost Sharing
The District agrees with the finding that there was not a record of cost sharing in the financial
system; however, the District has maintained extensive documentation in the program records to
support cost sharing claims. The State of California requires the District to use the Standardized
Accounting Code Structure to identify all income sources, goals, functions and expenditures and
there is no apparent mechanism for flagging cost sharing or matching funds and linking them to a
specific funding source. We have placed several inquires into the California Department of
Education to seek guidance on how to follow the auditor’s recommendation while continuing to
comply with the State requirements.
The District disagrees with the representation that SFSUD representatives do not understand the
requirements of the grant. As noted in the audit report, SFUSD developed policies and
procedures to ensure that requirements of OMB Circular A-87 were addressed upon receiving
notification of these requirements at an NSF conference. Discussions with the California
Department of Education have not yet identified a way to notate cost sharing in the accounting
system; however, detailed documentation has been maintained in the program records to meet the
grant obligation.
Finding 4. Inaccurate Expenditure Reporting
The District agrees that there were inaccuracies in draw downs in 2003 that have been corrected.
Since that time, the a new XXXX has been hired for the State and Federal Accounting unit and
XX has developed practices to monitor all draw downs of State and Federal funds including
reviewing all documentation to support the claims. Additionally, program managers now receive
a copy of the supporting documentation to reconcile with their program records.

The finding does not report that the errors in reporting on the FCTR were addressed. Because
the term of the grant exceeded the term of this audit, it does not include the period in which
FCTR reports were adjusted to rectify the overpayment in the prior periods. It should be clear
that there is not an overpayment for the term of the grant.
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

             Internet
          www.nsf.gov/oig

           Email Hotline
           oig@nsf.gov

            Telephone
           703-292-7100

             Toll-free
          1-800-428-2189


               Fax
           703-292-9158


                 Mail
     Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230
